H
I

In The
SUPREME COURT OF THE UNITED STATES
No.

FRANK SALAZAR,
Petitioner,
v.
ANTHONY ANDERSON; KEVIN KIHN;
GOLDEN AUTOMOTIVE GROUP TRADE NAME
PLANET HONDA; LEO PAYNE;
BLACK HILLS FEDERAL CREDIT UNION;
DEEANN DIETRICH; KITTY GUST,
Respondents.

CERTIFICATE OF WORD COUNT

Pursuant to Rule 33.1(h) of the Rules of this Court, I certify that the
accompanying Petition for Writ of Certiorari, which was prepared using
Century Schoolbook 12-point typeface, contains 7,173 words, excluding the
parts of the document that are exempted by Rule 33.1(d). This certificate was
prepared in reliance on the word-count function of the word-processing
system (Microsoft Office Word for Mac 2009) used to prepare the document.
I declare under penalty of perjury that the foregoing is true and
correct.
Executed on May 17, 2021.

Frank Salazar
Petitioner pro

Received
MAY 24 2021

